2020 IL App (2d) 190533-U
No. 2-19-0533
Order filed September 22, 2020
NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited
as precedent by any party except in the limited circumstances allowed under Rule
23(e)(1).
______________________________________________________________________________
IN THE
APPELLATE COURT OF ILLINOIS
SECOND DISTRICT
______________________________________________________________________________
THE PEOPLE OF THE
STATE OF ILLINOIS,

) Appeal from the Circuit
) Court of DuPage County
)
Plaintiff-Appellee,
)
v.
) No. 18-CF-880
)
GREGORY C. DACANAY,
) Honorable Liam C. Brennan,
) Judge, Presiding
Defendant-Appellant.
)
______________________________________________________________________________
JUSTICE HUTCHINSON delivered the judgment of the court. Justices
Jorgensen and Hudson concurred with the judgment.

SUBMITTED - 10920472- SALVATORE MIGLORE - 10/27/2020 11:40 AM 126558

1a

ORDER
¶ 1 Held:

The trial court did not err in (1) denying defendant’s motion to excuse
certain jurors for cause, (2) granting the State’s motion to amend the
indictment to remove unnecessary allegations, (3) denying defendant’s
motion to suppress statements he made during a recorded interview,
and (4) admitting photographs of Snapchat conversations into
evidence.

¶ 2 Following a jury trial, defendant, Gregory C. Dacanay, was convicted of one
count of aggravated Criminal sexual abuse. On this direct appeal, defendant
contends that the trial court (1) deprived him of a fair trial by not excusing certain
jurors for cause, (2) violated his due process rights when it granted the State’s
motion to amend the language in the indictment the day of trial, (3) erroneously
denied his motion to suppress statements made in a recorded interview, and (4)
erred by admitting certain photographs into evidence. For the reasons that follow,
we affirm defendant’s conviction.
¶3

I. BACKGROUND

¶4
The following was adducted at trial. In April 2018, defendant, then 42 years
old, was employed as a personal trainer/manager at a fitness facility in Glen Ellyn.
The then 16-year-old victim, G.M., was employed part-time at the same facility,
working at the front desk. G.M. alleged that on April 14, 2018, defendant asked
him to help move some things in a small, second-floor trainer locker room. After the
two entered the locker room and the door shut behind them, defendant turned off
the lights and began rubbing G.M.’s chest and kissing his neck. Defendant then
pulled down his sweatpants, removed his erect penis, took G.M.’s hand and placed it
on his penis. After that, defendant unbuckled G.M.’s belt buckle, pulled down
G.M.’s pants and underwear to his ankles, and performed oral sex on G.M.
Eventually, G.M. stepped away from defendant and pulled up his pants. Defendant
then told G.M. not to tell anyone what had happened or he would go to prison and
that he was ashamed of his behavior; defendant also spoke about his wife and
children.
¶5
The next day G.M. told his parents about the incident, and the called the
police. The responding officer took G.M.’s statements, and on April 16 the case was
assigned to Vince Liberio, an investigator with the DuPage County State’s
Attorney’s Children’s Center. Liberio and his partner, Kathy Hundley, interviewed
G.M. and his mother regarding the incident and formulated a plan to contact
defendant through Snapchat, a social media application that allows for its users to
send pictures, video, or text messages to other users, which are available only for a
limited time before becoming inaccessible.

2a

¶6
On April 18, G.M. and his mother returned to the Children’s Center with
G.M.’s phone to begin exchanging Snapchat messages with defendant. Liberio
explained to G.M. what the messages should convey but instructed G.M. to put the
messages in his own words. Due to the ephemeral nature of the messages, Libero
took pictures of the messages on the phone as they were sent or received. The
following is the exchange of messages between G.M. and defendant from about 4:00
p.m. to 5:30 p.m. under Liberio’s instruction:
“G.M.: hey
are you there
DEFENDANT: Hey
G.M.: ryan asked to take my shift on Saturday
DEFENDANT: Ok treadmills are being delivered late tonight u gonna
workout
G.M. not sure yet but i’m still confused about what happened on Saturday
DEFENDANT: Oh
Im here late night if you need anything
G.M. i can’t tonight
DEFENDANT: Ok let me know if something changes
G.M. you said that it was hard on your but it’s also hard on me rn [right now]
DEFENDANT: Should I vanish?
G.M.: no i’m just nervous
DEFENDANT: About?
G.M.: if it’s gonna happen again
DEFENDANT: It doesn’t have to
G.M.: i just haven’t had anybody do that to me before
i don’t know how to feel yet
DEFENDANT: Oh
Was it good
G.M.: i’m not sure
did you cum
DEFENDANT: I guess it was bad
3a

Wat was ur question?
G.M.: i asked did you cum
DEFENDANT: Lol really?
G.M.: i don’t know if it was good that was my first time getting a bj [blow job]
DEFENDANT: Getting or giving.
G.M.: getting
DEFENDANT: Oh
U got a lot of homework
G.M.: some
what do you mean
DEFENDANT: Im confused what?
G.M.: what homework are you talking about
DEFENDANT: Idk. Thought u couldn’t work out cause u had a lot of
Homework
G.M.: i have some but i just wanted to talk about Saturday
DEFENDANT: Ok
I can vanish
G.M.: i have to go i’ll talk to you later”
Liberio directed G.M. to inform the investigators if defendant attempted any further
conversation via Snapchat and directed him to not respond to any such
communication. They planned to resume messaging defendant the next afternoon.
¶7
The next morning, Liberio was informed that defendant messaged G.M. at
some point in time during the evening. Liberio went to G.M.’s home to view the
message, which stated, “U awake.” The afternoon, G.M. and his mother returned to
the Children’s Center to resume messaging defendant on Snapchat, which Liberio
again documented by photograph. This time, however, Liberio took over the phone
and exchanged messages with defendant, posing as G.M. The following exchange
took place over the course of two hours:
“G.M.: how late did you end up staying there last night
hey are you there
DEFENDANT: 338am. Dying [accompanied by a bitmoji picture]
LIBERIO: [as G.M.]: i couldn’t sleep either
4a

have you been thinking about giving me another blowjob
DEFENDANT: Ha maybeereeeee
U?”
That text message was accompanied by [a] picture message of defendant’s penis.
The conversation continued:
“LIBERIO [as G.M.]: is that yours
?
DEFENDANT: Have you thought about it
LIBERIO [as G.M.]: yeah but i’m nervous because you said something about
getting in trouble…am i gonna get in trouble because i’m 16?
DEFENDANT: Naw r u trying to get me in trouble
LIBERIO [as G.M.]: nooo i thought you said i would get in trouble that’s why
I was scared
DEFENDANT: U won’t get in trouble
Lol
u want me to vanish
LIBERIO [as G.M.]: no just freaking a little but ok
DEFENDANT: Lol. Ur fine.
U want it again
?
Wait so shud i vanish?
LIBERIO [as G.M.]: you’ll give me another blowjob?
DEFENDANT: U have to b more discreet when u chat. Lol
LIBERIO [as G.M.]: ok sorry
DEFENDANT: U gonna work out today
LIBERIO [as G.M.]: gotta go mom is calling me. later”
¶8
The next morning, Liberio, Hundley, and a Glen Ellyn police officer went to
the fitness facility to locate the defendant. Liberio approached defendant, identified
himself as an investigator, and asked defendant if he would come to the police
station to speak with him about an ongoing investigation. Defendant complied and
rode with Liberio and Hundley in an unmarked car the few blocks to the police
station. Once there, defendant was led to an interview room located next to the
5a

lobby. Liberio then read the Miranda warnings to defendant before beginning the
interview. During the interview, defendant denied that anything sexual happened
between him and G.M. but admitted to sending certain Snapchat messages to G.M.,
including the picture message of his penis. About an hour and fifty minutes into the
interview, defendant stated, "I need an attorney in front of me," and the interview
ceased. Defendant was then arrested.
¶9
The April 20 complaint listed two counts of aggravated criminal sexual
abuse. The first count alleged "sexual penetration *** in that the defendant placed
his mouth on the penis of G.M." The second count alleged "sexual conduct *** in
that the defendant placed G.M.'s hand on defendant's penis[.]" (Emphasis added.)
On May 8, 2018, the grand jury issued its indictment, which also noted two counts
but changed the order of the charges and the wording from the complaint. First,
"defendant knowingly committed an act of sexual conduct with G.M., *** in that the
defendant touched G.M. 's sex organ for the purpose of sexual gratification or
arousal of G.M. or the defendant" and second, "defendant knowingly committed an
act of sexual penetration with G.M., *** in that the defendant's mouth touched
G.M.'s sex organ for the purpose of sexual gratification or arousal of G.M. or the
defendant[.]" (Emphasis added.)
¶ 10 Defendant filed a motion to suppress the statements he made about the
Snapchat messages during the interview. The trial court denied that motion,
finding that defendant made voluntary statements and reinitiated conversation
with the investigators after asking if he should have his lawyer present about an
hour into the interview (the record does not contain a complete transcript of the
hearing but does include the court's reasoning in denying the motion). Defendant
also filed a motion to bar certain evidence and testimony at trial. The motion was
granted in part but denied with respect to (1) a previous instance where defendant
sent a picture of his penis to G.M., (2) video evidence from the fitness facility on the
day of the incident, and (3) the photographs of the Snapchat messages.
¶ 11 On the day of trial, before the jury selection began, the State sought to strike
the phrase "for the purpose of sexual gratification or arousal" in count II
(penetration) of the indictment. Defendant did not object, and the motion was
granted.
¶ 12 Jury selection lasted a full day with each of the potential jurors being
thoroughly questioned about their ability to be impartial by the trial court, the
State, and defendant's counsel. The court ultimately excused seven jurors for cause.
Defense counsel used all seven of the allotted peremptory challenges and requested
that the court grant him additional peremptory challenges. Although the court
noted that it had discretion to do so, it did not grant defendant's requests.
¶ 13 Relevant to his argument on appeal, defendant moved to excuse two jurors
for cause. The first, Juror 15, cried when recalling how she witnessed the sexual
assault of a friend. In denying defendant's motion, the trial court stated “She did
become emotional when it related to a sexual assault of another person that she
6a

said she witnessed, but she also indicated that she believed that she could be fair,
and I don't believe it is a basis to excuse her for cause." Defendant used his final
peremptory challenge to remove her from the panel.
¶ 14 The second, Juror 94, was employed as a police officer in a neighboring
county. After hearing argument as to why the juror should be excused for cause, the
trial court denied defendant's motion:
"[H]e clearly answered every single question asked, whether by the Court or
by the State or some vigorous questioning on [defendant's] behalf as well, entirely
appropriately. The suggestion is that as a police officer, he knows what to say,*** he
can't possibly mean it or be fair. But, quite frankly his demeanor *** and his
answers don't lead me to believe he's being anything about [sic] truthful, and,
frankly, I have had police officers tell me that they couldn't be fair in the past."
The court also denied defendant's motion for an additional peremptory challenge to
Juror 94: "[i]f the officer had made any suggestion whatsoever that was problematic
and yet not approaching cause, I might exercise the digression, [sic] but there's been
not even a hint of anything inappropriate."
¶ 15 Finally, defense counsel noted that defendant asked him to withdraw a third
motion for cause to dismiss Juror 78 who knew Investigator Hundley:
"MR. MIGLORE [DEFENSE ATTORNEY]: Yeah, he does know her, but he
says he can judge the case fairly. At this point in time, I'm not going to make
a motion for cause. I just -- we have considered -- my client asked me to
withdraw it.
THE COURT: That's fair. I think I would also point out that he kept calling
her Ms. Hundley, not Kathy. I think there's relationship because he coached
her kids at a certain point, but I would -- I didn't see anything that rose
anywhere near –
MR. MIGLORE: Me neither.
THE COURT: Very good."
The trial the next day.
¶ 16 The State presented its case in chief with both G.M. and Liberio testifying as
to the facts detailed above, playing clips from the recorded interview, and
introducing the photographs of the Snapchat messages into evidence. On crossexamination, G.M. admitted that he was not sure if defendant placed his penis in
G.M.'s left or right hand first and reiterated that defendant's penis was erect. After
the State rested, defense counsel moved for a directed finding. Defense counsel
argued that, with respect to the first count (sexual conduct), G.M.'s testimony was
confusing and inconsistent. He then began to discuss G.M.'s testimony regarding
defendant placing his penis in G.M.'s hands. The following exchange then occurred:
7a

"THE COURT: State, is there any evidence that the defendant touched GM's
sex organ?
MR. MINSER [ASSISTANT STATE'S ATTORNEY]: Yes, your Honor. The
defendant gave the victim oral sex. He indicated that the defendant's mouth
–
THE COURT: He's talking about Count One.
MR. MINSER: Your Honor, in regards to Count One, the State charges the
same act two different ways, Judge.
So when the defendant touched GM's sex organ with his mouth and he gave
him oral sex, that is the act that the State is citing to and the act of sexual
conduct.
THE COURT: Oh, so you're not -- you have not charged the -- you have not
charged the defendant placing his penis in the victim's hand?
MR. MINSER: No, Judge.
THE COURT: Well, with that understanding then, the motion for directed
finding is denied."
¶ 17 Defendant chose not to testify but called the responding police officer to
impeach G.M.'s testimony regarding the length of time of the incident. Following
closing arguments, the jury deliberated and found defendant guilty of both counts.
¶ 18 Defendant filed a motion for a new trial, which the trial court denied.
Defendant was sentenced to 120 days in jail and 30 months of sex offender
probation. Defendant timely appealed.
¶19

II. ANALYSIS

¶ 20 We start with defendant's first contention, that the trial court deprived him
of a fair trial by not excusing certain jurors for cause. He argues that although
Jurors 15, 94, and 78 all stated that they could be impartial, their "life experiences,"
as evidenced through their answers to voir dire examination, demonstrated that
they could not, and each should have been excused for cause. Citing People v. Cole,
54 111. 2d 401 (1973), and People v. Stremmel, 258 III. App. 3d 93 (1994),
defendant claims that he was unduly prejudiced by having Juror 94, who is
employed as a police officer, and Juror 78, who knew Hundley, on his jury. In
response, the State contends that the court did not abuse its discretion in not
excusing the three potential jurors for cause or by not allowing additional
peremptory challenges to defendant and that he waived his arguments to Juror 15
and 78. We agree with the State.
¶ 21 "Simply stated, a fair trial requires impartial jurors." People v. Vargas, 277
III. App. 3d 289, 298 (1995). To secure a defendant's constitutional right to an
impartial jury, inquiry during voir dire is permitted to ascertain whether a
8a

potential juror has any bias, opinion, or prejudice that would affect or control his
ability to make a fair determination of the issues to be tried. People v, Encalado,
2018 IL 122059, II 24. Impartiality is not a technical concept but rather a state of
mind. People v. Tondini, 2019 IL App (3d) 170370, ¶ 17. Specifically, a person is not
competent to sit as a juror if his state of mind is such that a party will not receive a
fair and impartial trial with him as a member of the jury. Id. A prospective juror's
remarks during voir dire must be considered as a whole, and, as each voir dire is
unique, the propriety of dismissing a juror for cause must be considered on a caseby-case basis. People v. Harris, 225 Ill. 2d 1, 34 (2007).
¶ 22 The burden of showing that a potential juror is partial rests on the party
challenging the juror, which requires more than a mere suspicion of bias. Tondini,
2019 IL App (3d) 170370 ¶ 18. "A court's failure to remove a juror for cause is
grounds for reversal only if the defense exercised all of its peremptory challenges
and an objectionable juror was allowed to sit on the jury." Id. An objectionable juror
is forced upon a defendant when he has exhausted all of his peremptory challenges
and there was "some attempt to persuade the trial judge that a juror the defendant
was required to accept could not be fair and impartial." People v. Reid, 272 111.
App. 3d 301, 309 (1995). The determination to allow a challenge for cause lies
within the sound discretion of the trial court, and it will not be disturbed absent an
abuse of discretion. Tondini, 2019 IL App (3d) ¶ 18. "An abuse of discretion occurs
when the conduct of the trial court thwarts the purpose of voir dire examination—
namely, the selection of a jury free from bias or prejudice." People v. Rinehart, 2012
IL 111719,11 ¶ 16.
¶ 23 At the outset, we note that defendant's argument regarding Juror 15 is
waived by not including a claim of error in his post-trial motion. See People v.
Enoch, 122 III. 2d 176, 18 (1988) ("Both a trial objection and a written post-trial
motion raising the issue are required for alleged errors that could have been raised
during trial." (Emphasis in original)). Similarly, defendant's argument regarding
Juror 78 is waived by not objecting, but rather acquiescing to, Juror 78's placement.
Defendant admits as much as to Juror 78 and claims that his argument with
respect to Juror 15 is merely to demonstrate his "wasted" final peremptory
challenge, leading to Juror 94 being "forced upon" him. Irrespective of the
impassioned language defense counsel uses to make his plea, we will not review his
arguments with respect to either Juror 15 or Juror 78, finding them waived.
¶ 24 With respect to Juror 94, defendant cites Cole for the proposition that a juror
is "presumed to be biased and therefore disqualified if he was related to a party to
the litigation *** through certain indirect personal relationships." 54 III. 2d at 413.
Here, he asserts, the "indirect personal relationship” which disqualifies Juror 94 is
his profession as a police officer, which colored the way he viewed the facts of this
case. However, we note that Juror 94's employment did not render him unfit to
serve on the jury. See People v. Jones, 162 III. App. 3d 487, 493 (1987) (“[t]he mere
fact that a person has been a police officer or even the fact that the person is
9a

presently serving in that capacity is not enough to require allowance of a challenge
for cause").
¶ 25 Defendant attempts to analogize Stremmel to the facts present here, In
Stremmel, after a jury trial with significant amounts of both police and lay person
testimony and physical evidence, the defendant was convicted of first degree
murder. 258 Ill. App. 3d 93, 95-101. On appeal, the defendant argued, inter alia,
that the trial court erred in declining to excuse a prospective juror for cause based
on his relationships with officers serving as witnesses for the State. Id. at 111. The
juror in question was [a] 19-year veteran of the same police department of all 11
testifying officers, was previously partners with a testifying officer, and stated
under oath that he "would have no problem" judging the testimony of the officers.
Id. at 110. The appellate court held that the mere fact that a potential juror was a
police officer was insufficient to automatically allow a challenge for cause; however,
if a police officer has a close relationship to the case, he should be excluded from
serving. Id. at 113. The court reasoned that because several important pieces of
evidence involved the credibility of the testifying witnesses, weighing the lay
witnesses' testimony against the officer's testimony, the outcome of the case could
have hinged on the credibility of the officers, including the juror's former partner.
Id. at 113-14. Thus, the court reversed the conviction and remanded the cause for a
new trial. Id. at 114.
¶ 26 We disagree with defendant's assertion that Stremmel and the case at bar
are "close enough" to be analogous because both the juror in Stremmel and Juror 94
are police officers empaneled in a criminal case, hearing testimony from witnesses
who are "a part of the same society or corporation." Unlike the juror in Stremmel,
Juror 94 does not work in the same department—or the same county for that
matter—as Liberio and did not have a relationship with any of the witnesses who
testified. Furthermore, our review of Juror 94's answers to the voir dire questions
reveals, contrary to defendant's assertions, that Juror 94 has not been extensively
involved in investigating criminal sexual abuse cases, that he could render a notguilty verdict without having to justify it to his colleagues, and that he would view
the evidence presented as an "average person who was looking [at the facts] from
the outside." This belies defendant's arguments that Juror 94's employment as a
police officer and his answers to voir dire questions demonstrates that he was
biased against defendant.
¶ 27 Moreover, in denying the motion for cause, the trial court found Juror 94
truthful and that his demeanor and answers were appropriate even after the
"vigorous questioning" from defense counsel. In light of the record before us and the
trial court's opportunity to evaluate Juror 94's responses and assess his candor
(People v. Harris, 231 111. App. 3d 876, 879 (1992)), we conclude that the court's
determination to not excuse Juror 94 for cause was not an abuse of discretion.
¶ 28 We next address defendant's second contention that the trial court violated
defendant's due process rights when it granted the State's motion to amend the
10a

language of count Ii of the indictment. Defendant argues that the amendment was
substantive and that, as a result, the jury heard irrelevant and prejudicial
testimony about an uncharged act. He further argues that the change of the
indictment violated the one-act, one-crime principles espoused by People v. King, 66
Ill. 2d 551 (1977) and its progeny. Because his substantial rights were violated by
the amendment, defendant urges us, in his reply brief, to conduct a second-prong
plain error analysis. The State contends that, by failing to object to its motion to
amend the indictment, defendant has waived any arguments on appeal and further
asserts that no error occurred. Again, we agree with the State.
¶ 29 The first step in plain-error analysis is to determine whether any error
occurred. People v. Piatkowski, 225 111. 2d 551, 565 (2007). If an error occurred,
reviewing courts may consider an unpreserved error when the error is clear or
obvious and either (1) the evidence is so closely balanced that the error alone
threatened to tip the scales of justice against the defendant, regardless of the
seriousness of the error or (2) the error is so serious that it affected the fairness of
the defendant's trial and challenged the integrity of the judicial process, regardless
of the closeness of the evidence. People v. McDonald, 2016 IL 118882, ¶ 48. Secondprong plain-error analysis applies where the error is so serious that review is
necessary to preserve the integrity of the judicial process and provide a fair trial.
People v. Glasper, 234 Ill. 2d 173, 213 (2009). The defendant has the burden of
persuasion to establish plain error, and if he fails to meet that burden, the
procedural default will be honored. People v. Hillier, 237 Ill, 2d 539, 545-47 (2010).
¶ 30 Here, no error occurred. Once a grand jury has returned an indictment, it
may not be materially changed or broadened in scope except by the grand jury itself.
People v. Jones, 2012 IL App (2d) 110346, ¶11 52-54. However, section 111-5 of the
Code of Criminal Procedure of 1963 (Code) provides that an indictment may be
amended on either party's motion at any time to address formal defects, including
the presence of any unnecessary allegation. 725 ILCS 5/111-5(d) (West 2018).
Amendments to an indictment that change the manner in which the defendant
committed the offense are formal, not substantive. People v. Ross, 395 III. App. 3d
660, 670 (2009). Amending formal defects in an indictment "is warranted especially
where there is no resulting surprise or prejudice to the defendant or where the
record clearly shows that he was otherwise aware of the charge against him." Id. at
667.
¶ 31 In moving to strike "for purposes of sexual gratification or arousal of the
defendant or G.M." in count II (penetration) of the indictment, the State was
requesting to remove an unnecessary allegation pursuant to subsection 111-5(d) of
the Code. See People v. Kolton, 219 Ill. 2d 353, 370 (2006) (holding an indictment
alleging sexual penetration need not specifically allege it was done for the
defendant's sexual gratification); see also People v. Burton, 399 Ill. App. 3d 809, 814
(2010) (holding an indictment alleging sexual conduct must allege it was done for
the purposes of the defendant's sexual arousal or gratification). Following
established precedent, the trial court appropriately granted the State's motion.
11a

¶ 32 Nevertheless, defendant maintains that this change necessarily altered the
charges from two separate acts (the defendant placing his penis in G.M.'s hands and
the oral copulation) to one (the oral copulation), which diminished the integrity of
the judicial process and denied defendant a fair trial. Contrary to defendant's
assertions, the integrity of the judicial process remains intact. The unobjected-to
amendment of the indictment was formal and removed an unnecessary allegation.
To the extent that the amendment to count II changed the nature of count I, it was
permissible because it would have only changed the manner in which defendant
committed the offense (from touching G.M.'s penis with his hand to touching it with
his mouth). See, e.g., Ross, 395 Ill. App. 3d at 671 (holding that the amendment to
an indictment, which changed the type of sexual contact from penis-to-anus contact
to penis-to-vagina contact in a criminal sexual assault case, was formal). The State
did not seek to alter an essential element of the indictment, broaden its scope, or
change the offense with which defendant was charged. We therefore find no clear or
obvious error.
¶ 33 Furthermore, we reject defendant's argument that because of the
amendment, the jury heard "totally irrelevant" testimony about the uncharged act
of defendant placing his penis in G.M.'s hands, which caused undue prejudice
against defendant. This testimony was not irrelevant, but rather a part of the
continuing narrative of the incident. See People v. Pikes, 2013 IL 115171, ¶ 20
("evidence of other crimes may be admitted if it is part of the 'continuing narrative'
of the charged crime"). Additionally, defendant's argument that this amendment
violated King, 66 Ill. 2d at 566 (prohibiting multiple convictions for multiple
offenses that are based on the same physical act), is also meritless. Although
defendant was charged with and found guilty of multiple counts of aggravated
criminal sexual abuse for performing oral sex on G.M., the record proves that only
one conviction and one sentence were entered on count II. Therefore, the trial court
did not err when it granted the State's motion to amend count II of the indictment.
¶ 34 Defendant's next contention is that the trial court erred in denying his
motion to suppress statements that he made during the interview, because he made
those statements involuntarily while in custody. 1We note that the record before us
lacks the full transcript of the hearing on defendant's motion to suppress. When the
issue on appeal relates to the conduct of a hearing, this issue is not subject to review
absent a record of the proceeding. Webster v. Hartman, 195 Ill. 2d 426, 432 (2001).
Absent a record, "it [is] presumed that the order entered by the trial court [is] in
conformity with law and had a sufficient factual basis." Foutch v. O'Brien, 99 Ill, 2d
389, 392 (1984). Without the complete record of the hearing, we cannot fully address
defendant's argument on appeal. We do, however, have before us the record of the
court's reasoning for denying the motion, as well as the video of the interview.

In his reply brief, defendant conceded that he reengaged with the investigators after he asked if he
should have a lawyer present during the interview and withdrew his argument that the
investigators ignored his invocation for counsel.
1

12a

Having reviewed both, we conclude that the court did not err in denying defendant's
motion to suppress statements he made during the interview.
¶ 35 In reviewing a trial court's ruling on a motion to suppress evidence, we apply
a two-part standard of review. People v. Johnson, 237 Ill. 2d 81, 88 (2010). A trial
court's findings of fact are not disturbed unless they are against the manifest
weight of the evidence, but the ultimate legal determination as to whether a motion
to suppress should have been granted is a question of law we review de novo. People
v. Rivera, 227 Ill. 2d 1, 11 (2007).
¶ 36 The test for voluntariness of a statement is whether a defendant made his
confession freely and voluntarily, without compulsion or inducement of any kind, or
whether his will was overborne at the time of the confession, People v. Morgan, 197
111. 2d 404, 437 (2001). To determine the voluntariness of a statement, courts look
to the totality of the circumstances, including: the defendant's age, intelligence,
background, experience, education, mental capacity, and physical condition at the
time of questioning; the legality and duration of the detention; the presence of
Miranda warnings; the duration of the questioning; and any physical or mental
abuse by police, including the existence of threats or promises. People v.
Richardson, 234 Ill. 2d 233, 253-54 (2009). Where a defendant challenges the
admissibility of an inculpatory statement through a motion to suppress, the State
bears the burden of proving, by a preponderance of the evidence, that the statement
was voluntary. Id. at 254. If the State succeeds in presenting its prima facie case,
the burden shifts to defendant to produce some evidence that the confessions were
involuntary. People v. Patterson, 154 Ill. 2d 414, 445 (1992).
¶ 37 The record before us reveals that defendant was 42 years old at the time of
the interview, which lasted a little under two hours. The video establishes that
defendant was read his Miranda rights and indicated that he understood them.
Throughout the interview, defendant was alert, cooperative, and engaged with the
investigators, who remained respectful to defendant and spoke to him in a
conversational tone. He seemed to be intelligent and followed the questions of the
investigators with no issue. Defendant quickly inferred that the interview was
regarding something sexual, even if the investigators did not directly ask him about
the details of the incident. In fact, the trial court found that the investigators were
"clever" in conducting the interview. After determining that the State had met its
burden, defendant did not put on any contradictory evidence to show his statements
were involuntary or coerced in any way. In the absence of any evidence to the
contrary, we cannot find that the trial court was unreasonable in finding that
defendant's statements to the investigators were voluntary. When we consider the
various factors, they collectively demonstrate that defendant's will was not
overborne during the interview and therefore his statements were voluntary.
¶ 38 Finally, defendant makes a conclusory argument that the trial court erred in
admitting the photos of the Snapchat messages into evidence because the State
failed to lay a proper foundation. The State maintains that it elicited sufficient
13a

testimony lay a proper foundation. The admissibility of evidence is a matter within
the sound discretion of the trial court, and it will not be overturned on appeal
absent a clear abuse of discretion. People v. Nixon, 2016 IL App (2d) 130514, ¶ 36.
An abuse of discretion occurs only where the trial court's decision is arbitrary,
fanciful, or unreasonable, or where no reasonable person would take the view
adopted by the trial court. Id.
¶ 39 Here, the State elicited testimony from both G.M. and Liberio concerning the
photographs. G.M. testified that defendant added his contact information into
G.M.'s Snapchat account, that he had changed defendant's identifying username to
"Greg," and that the two had conversed using that app before. G.M. also testified as
to the conversation that took place at Liberio's instruction and that the photographs
fairly and accurately depicted the conversation that he had with defendant over
Snapchat. Likewise, Liberio testified that he photographed every Snapchat
conversation "to document the communication, exactly how it happened." He also
identified the photographs truly and accurately depicted the conversations between
G.M. and defendant as well as the conversations he had with defendant while
posing as G.M. Additionally, in the interview, defendant identified his Snapchat
username, acknowledged the Snapchat conversations between him and GM., and
admitted that he sent the photograph of his penis to defendant.
¶ 40 With the foregoing facts firmly established, we cannot say that the trial court
abused its discretion in finding that the State laid sufficient foundation to admit the
photographs into evidence.
¶ 41

III. CONCLUSION

¶ 42 For the reasons stated, we affirm defendant's aggravated criminal sexual
abuse conviction.
¶ 43 Affirmed.

14a

SEAL OF THE SUPREME COURT
STATE OF ILLINOIS
AUG.26.1818
SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185
Salvatore Charles Miglore
Salvatore C. Miglore & Associates, P.C.
300 S. Carlton Ave., Suite 130
Wheaton, IL 60187
January 27, 2021
In re: People State of Illinois, respondent, v.
Gregory C. Dacanay, petitioner. Leave to Appeal, Appellate Court,
Second District. 126558
The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 03/03/2021.
Very truly yours,
s/ Carolyn Taft Grosboll
Clerk of the Supreme Court

15a

RELEVANT STATUTE
(705 ILCS 305/) Jury Act.
705 ILCS 305/2 (from Ch. 78, par. 2)
SECTION 2. Jury qualifications.
(a) At the September meeting of the county board in each year in the
respective counties in this State, except those that have jury commissioners, the
board shall select from the list the number of persons as the judges of the circuit
courts, to be held in the county during the succeeding year, may by joint action
determine to serve as petit jurors. In counties having jury commissioners, the
persons to serve as petit jurors shall be selected by the jury commissioners, as
provided by law. County boards, a jury administrator, and jury commissioners may
utilize the services of the Administrative Office of the Illinois Courts in making
these selections. Jurors in all counties in Illinois must be:
(1) Inhabitants of the county.
(2) Of the age of 18 years upwards.
(3) Free from all legal exception, of fair character, of approved integrity, of
sound judgment, well informed, and able to understand the English
language, whether in spoken or written form or interpreted into sign
language.
(4) Citizens of the United States of America.
(b) Except as otherwise specifically provided by statute, no person who
is qualified and able to serve as a juror may be excluded from jury
service in any court of this State on the basis of race, color, religion,
sex, national origin, sexual orientation, or economic status. As used in
this subsection, “religion,” “sex,” “sexual orientation,” and “national
origin” have the meanings provided in Section 1-103 of the Illinois
Human Rights Act.

16a

